IN THE
SUPREME COURT OF THE UNITED STATES

No. _____

ALFREDO CAMARGO,
Petitioner,
v.
DAVID SHINN, DIRECTOR, ARIZONA DEPARTMENT OF CORRECTIONS;
ATTORNEY GENERAL FOR THE STATE OF ARIZONA,
Respondents.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Rule 39 of the Rules of this Court, Petitioner Alfredo Camargo
respectfully asks for leave to file the attached Petition for Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis. On August 11, 2015, the
United States Court of Appeals for the Ninth Circuit determined that Petitioner is
indigent and ordered the appointment of counsel for him under 18 U.S.C.
ยง 3006A(a)(1)(A). On September 1, 2015, the district court appointed undersigned
counsel, a member of the bar of this Court.

Respectfully submitted,
JON M. SANDS
Federal Public Defender
s/ Molly A. Karlin
MOLLY A. KARLIN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
850 West Adams Street, Suite 201
Phoenix, Arizona 85007
(602) 382-2700
Counsel for Petitioner
October 12, 2021

2

